                  U.S. G O V E R N M E N T
             ='   P R I N T I N G OFFICE
                  KEEPING AMERICA INFORMED




ASSESSMENT
             FEDERAL DIGITAL SYSTEM (FDSYS)
REPORT       INDEPENDENT VERIFICATION AND
09-04         VALIDATION (IV&V) - SECURITY
                   ANALYSIS REPORT
                       December 24,2008
                          U.S. GOVERNMENT

              -           KEEPING AMERICA INFORMED                OFFICE OF THE INSPECTOR GENERAL
                          WASHINGTON, DC 20401




    DATE:      December 24,2008

REPLY TO
 ATTN OF: Assistant Inspector General for Audits and Inspections

 SUBJECT: Federal Digital System (FDsys) Independent Verification and
          Validation (IV&V) - Final Security Analysis Report
          Report Number 09-04

      TO:      Chief Information Officer


      The GPO Office of Inspector General (OIG) is conducting independent verification and
      validation (IV&V) of GPO's Federal Digital System (FDS~S)'      implementation. The OIG
      contracted with American systems2to conduct IV&V for the public release of FDsys
      Release 1.c.) As part of its contract with the OIG, American Systems is assessing the
      state of program management, technical, and testing plans and other efforts related to the
      rollout of Release 1.C. One tasking is to evaluate security planning and implementation.
      The attached report prepared by American Systems is intended to provide a high-level
      assessment of the most recent version of the FDsys System Security Plan (SSP).
      Appendix A provides more detailed findings on the SSP. The assessment results were
      briefed to the Chief Information Officer and the Chief Information Security Officer on
      November 5,2008.

      Section 6 of the report contains five recommendations designed to strengthen FDsys
      system security planning and implementation. Management concurred with each of the
      five recommendations. We consider the actions proposed by management responsive to
      each of the recommendations. Management's response is included in its entirety in
      Appendix B of the report. The recommendations are resolved and will remain open until
      management has completed actions and the IV&V team has completed follow-up work.

      ' The FDsys program is a multimillion dollar effort that GPO is funding and managing to modernize the
      GPO information collection, processing, and dissemination capabilities it performs for the three branches of
      the Federal Government.
        American Systems, located in Chantilly, Virginia, is a large information technology company with
      significant experience in the realm of IV&V for Federal civilian and Defense agencies, including the
      Department of State, the Navy, and the U.S. Agency for International Development.
        ~mericanSystems IV&V methodology is referenced to the framework established by the Institute of
      Electrical and Electronic Engineers (IEEE) Standard 1012-2004, the IEEE Standard for Software
      Verification and Validation.
The status of each recommendation upon issuance of this report is included in Appendix
C. The final report distribution is in Appendix D.

If you have questions concerning this report or the IV&V process, please contact
Mr. Brent Melson, Deputy Assistant Inspector General for Audits and Inspections at
(202) 5 12-2037, or me at (202) 5 12-2009.




Kevin J. Carson
Assistant Inspector General for Audits and Inspections

Attachment

cc:
Chief of Staff
Chief Acquisition Officer
Chief Management Officer
Chief Technology Officer
                             IV&V TASK REPORT
TO:              Brent Melson, COTR
FROM:            IV&V, Jon Valett
IV&V OF:         GPO FDsys System Security Plan (Version 2.1 - Doc Number DCN 7024227)
SUBJECT:         Task 5.4.3.3 FDsys Security Analysis (Revised Final - Doc. No. 01-048)
DATE:            November 6,2008
CC:              Dan Rose, David Harold, John Best, Chris Paw, Shawn OYRourke,Mark
                 LoGalbo


1. Description of Task

Independent Verification and Validation (IV&V) performed a second assessment of the
Government Printing Ofice (GPO) FDsys System Security Plan (SSP) and its
applicability to the FDsys program. Specifically, IV&V reviewed the:

        GPO FDsys System Security Plan, 12 September 2008 version 1.0
        GPO FDsys System Design Document, 5 September 2008 version 2.0

2. Summary of Task Results

GPO FDsys PMO now has the responsibility for the development of the GPO FDsys
SSP. In reviewing the GPO FDsys SSP, the following policy, standards and guides were
used:

       FIPS 199, Standards for Security Categorization of Federal Information and
       Information Systems
       FIPS 200, Minimum Security Requirements for Federal Information and
       Information Systems
       NIST SP 800-18, Guide for Developing Security Plans for Federal Information
       Systems
       NIST SP 800-30, Risk Management Guide for Information Technology Systems
       NIST SP 800-37, Guide for the Security Certification and Accreditation of
       Federal Information Systems
       NIST SP 800-53, Recommended Security Controls for Federal Information
       Systems
       GPO Directive 825.33A, Information Technology (IT) Security Program
       Statement of Policy

The previous IV&V report was delivered on 15 April 2008 and was conducted on the
initial SSP. The initial SSP did not detail any security controls in accordance with NIST
SP 800-53. Since this time, it is apparent that a positive effort to include relevant security
controls has been made and the current SSP is a greatly improved document. While this is
an improvement, the N & V findings suggest that the current GPO FDsys SSP still does
not adequately detail the security controls in place, or those planned to be in place for the
protection of the confidentiality, integrity, and availability of the systems data and
associated resources.

3. Summary of Anomalies and Resolutions

No anomaly reports were written as a result of this task.


4. Assessment of Quality

The task assessed the GPO FDsys SSP and the System Design Document to determine if
the content of the document provided an adequate security strategy. Based on this
assessment, IV&V has drawn the following conclusions.

         The SDD appears to be a comprehensive system level document, but lacks some
         security architecture details. It is unclear from the diagram (figure 11.2-1) what
         the data flow is from external interfaces. Two firewalls are depicted on the
         hardware diagram, but no detailed information as to the type of firewall, make or
         model is included. It is understood that these may not be part of the certification
         boundary, but information regarding these devices will be necessary to determine
         the level of risk exposed to FDsys.

         Assuming a December 2008 deployment, the program may not currently have the
         resources with sufficient time to complete the GPO FDsys SSP.

         The GPO FDsys SSP has had much of the detailed functional data removed as
         recommended in the previous report, but still does not provide an adequate
         description of the.security controls either in place, or planned for FDsys. The
         Management, Operational and Technical control headers have been included and
         some controls have been adequately answered. There are however a considerable
         number of controls that have either not been answered, or lack sufficient detail.
         This system has been classified as a high-impact system 4and as a result, there are
         numerous control enhancements that must be included in the design of FDsys.

         The last SSP review that was conducted on 15 April, noted that the SSP version
         was 2.1. The latest version (12 September) is listed as 1.O. The document version
         control now starts at 0.9, with no mention of the previous versions of this
         document.




 The potential impact of a system is high if the loss of confidentiality, integrity, or availability could be
expected to have a severe or catastrophic adverse effect on organizational operations, organizational assets,
or individuals.
        The GPO FDsys SSP still does not identify the Authorizing Official, Certification
       Authority, or the Information System Security Officer. It is worthy to note that as
       FDsys has been classed as a high-impact system, the Certification
       AuthorityIAgent will need to be an independent third-party with no perceived or
       actual connection to the system.

       It is still unclear from the GPO FDsys SSP what the exact boundary of the system
       is. There is mention of several internal and external connections, but the SSP does
       not detail if any of these are part of their boundary and if not, if there are currently
       any Memorandum of Agreements in place.

       The general description of this system in the SSP is unclear and somewhat
       confusing. There does not need to be a lengthy technical description of the
       system, as references to the System Design documents can be made, there does
       however need to be a high level functional description of what the system is, its
       function, users and when it is planned for production.

       The SSP'S main function is to describe the baseline security controls in place, or
       intended to be in place once the system is operational. The current SSP is difficult
       to decipher when trying to establish if all controls have been met. When writing
       statements to satisfy a particular control, it is strongly advised to list that control
       number and any required control enhancements.

Please see Attachments at the end of this report for a detailed list of comments against
the GPO FDsys Systems Security Plan (SSP).


5. Identification and Assessment of Technical and Management Risks

The above results create the following potential risks:

       The confidentiality, integrity and availability protection of FDsys is critical for
       successful operational purposes, regulatory compliance and public confidence.
       The purpose of the GPO FDsys SSP is to provide an overview of the security
       requirements of the system and describe the controls in place or planned for
       meeting those requirements. This system has been categorized as a high-impact
       system in accordance with FIPS 199. As a result there are a number of control
       enhancements that must be addressed above the normal baseline controls. If not
       adequately answered, it would likely lead to a Denial of Authority To Operate
       (DATO) from the Authorizing Official.

       The GPO FDsys SSP fails to clearly and concisely provide sufficient detail for the
       Certification Authority and the Authorizing Official to base their initial
       acceptance and agreement of the security posture and residual risk associated with
       FDsys. Failure to clearly define the complete system architecture and associated
       security controls puts the system receiving a final Approval To Operate (ATO) in
      jeopardy and therefore delays the operational deployment to the GPO
      stakeholders, and the public.


6. Recommendations

IV&V recommends the following:

   1. GPO FDsys PMO follows the NIST SP 800-37 for a successful process in which
      to ensure the system receives an ATO. The C&A process is a team process and
      clear responsibilities need to be documented.

   Management's Response. Concur. The C&A process, when it is performed for the
   FDsys system, will use a team oriented approach, and the roles and responsibilities of
   the parties will be documented. The complete text of management's response is in
   Appendix B.

   Evaluation of Management's Response. Management's proposed actions are
   responsive to the recommendation. The recommendation is resolved, but will remain
   undispositioned and open for reporting purposes until corrective actions are verified
   by the IV&V team.

   2. Although the majority of the functional description in the original GPO FDsys
      SSP has been removed, there still needs to be a clearer, more detailed version of
      the system description, users, information flow, dependencies, security
      requirements, and security features.

  Management's Response. Concur. IT&S agrees to enhance the document to
  address these recommendations (see Appendix B).

  Evaluation of Management's Response. Management's proposed actions are
  responsive to the recommendation. The recommendation is resolved, but will remain
  undispositioned and open for reporting purposes until corrective actions are verified
  by the IV&V team.

  3. The NIST SP 800-53 should be used extensively as a guide to establish the
     required baseline security controls GPO FDsys will need to incorporate, or accept
     the risk. The document should list each control number and title and then a
     response as to how the control is implemented, or planned to be implemented
     should follow.

  Management's Response. Concur. The FDsys SSP already lists HIGH NIST-53A
  security controls as required. The GPO Risk Assessment template, which complies
  with NIST SP 800-26, will provide the recommended information. The FDsys Risk
Assessment is in the process of creation now and is planned for completion in
December 2008 to meet the requirements of the GPO C&A process (see Appendix
B).

Evaluation of Management's Response. Management's proposed actions are
responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are verified
by the IV&V team.

4. Any connection to systems outside of FDsys needs to be thoroughly documented.
   For any connections that are made to other systems inside GPO, there should be a
   Memorandum of UnderstandingJAgreement. For any connections to systems
   outside of GPO, there should be an Interconnection Security Agreement (ISA).

Management's Response. Concur. MOUIMOAs will be prepared for the general
support systems and major applications that FDsys interfaces to within GPO. An ISA
will be completed for the ILS, which is the only external system interface. IT&S
plans to complete these activities in December 2008, to support the C&A process for
FDsys (see Appendix B).

Evaluation of Management's Response. Management's proposed actions are
responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are verified
by the IV&V team.

5. Update the SSP to respond to the detailed comments provided in the Attachment
   to this report.

Management's Response. Concur. IT&S will provide a detailed matrix of intended
updates to the FDsys SSP. IT&S plans to provide that to the OIG in December 2008,
and to update the SSP accordingly (see Appendix B).

Evaluation of Management's Response. Management's proposed actions are
responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are verified
by the IV&V team.
                             Appendix A.
                    IV&V Document Review Comments

Document Reviewed: GPO FDsys System Security Plan (dated 12 September 2008)
Date of Review Comments: 27 October 2008
Conducted by: Mark LoGalbo

     Item Page         ParaISection #                      Comments
      #       #
 1        NIA     General                     This system has been classified as
                                              Sensitive But Unclassified (SBU);
                                             therefore correct document labeling
                                             should be followed in accordance with
                                             relevant GPO policy. Recommend the
                                             document should be labeled, "For
                                             Official Use Only (FOUO)" on every
                                             page and correct handling instructions
                                             added to the front cover.
                  Signature Page             It is unclear who is responsible for the
                                             system, based on the roles currently
                                             listed on the SSP signature page. The
                                             signature page is still missing the
                                             signature line for the Authorizing
                                             Official (AO), Certification
                                             AuthorityIAgent (CA), Information
                                             System Security Officer (ISSO), and
                                             the System Owner. The signature page
                                             currently has six people listed and
                                             some of these are probably the
                                             identified missing signatories (e.g., the
                                             CIO is probably the AO, but looks like
                                             the CIO could also be the system
                                             owner?), but is not clear.
.3        3       Document Version Control   The version control on this SSP starts
                                             at 0.9. The previous records depicting
                                             what was changed in the SSP needs to
                                             be kept as a record of change.
          6       1.1 -1.5 (System           This section is greatly improved from
                  Identification)            the last review, however the A 0 and
                                             CA is still missing and are key
                                             members of the Certification and
                                             Accreditation (C&A) management
                                             team.
5         8       1.6 (System Purpose and    The general description of FDsys is
                  Description)               still disconnected and somewhat
                                             confusing. This section should be a
                                             very high explanation of what the
                                             system purpose, capabilities, users,
Date of Review Comments: 27 October 2008




                                           should be written for a non-technical
                                           reader, with no prior knowledge of the
                                           system. In the prior report the
                                           following example was given: "GPO's
                                           Future Digital System (FDsys) system
                                           is currently under development and
                                           does not currently store, or process
                                           government data apartfrom test data.
                                            m e n operational it will reside on the
                                           GPO communications network and
                                           will be a world-class systemfor
                                           managing official Government content.
                                           FDsys will automate the collection and
                                           dissemination of electronic
                                           informationfrom all three branches of
                                           government. The system will verzfi and
                                           track versions, assure authenticity,
                                           preserve content, andprovide
                                           permanent public access. The system
                                           will be Rules based, Policy neutral,
                                           Modular and adaptable. The
                                           information contained within the
                                           system will be permanently available
                                           in electronicformat, authenticated and
                                           versioned, accessiblefor Web
                                           searching, viewing, downloading and
                                           printing, and availablefor
                                           conventional and on-demand
                                           printing". FDsys will be built to
                                           include all known Federal Government
                                           publications falling within the scope of
                                           GPO's Federal Depository Library
                                           Program (FDLP), including text,
                                           graphics, video, audio, numeric, and
                                           other emergingforms of content.  "

6         8      1.6 (System Purpose and   The accreditation boundary is still
                 Description)              unclear for the system. Recommend
                                           adding a section that explains what the
                                           accreditation boundary is limited to.
 Appendix A

I Document Reviewed: GPO FDsys System Security Plan (dated 12 September 2008)
 Date of Review Comments: 27 October 2008
 Conducted by: Mark LoGalbo

    Item                                                        Comments
      #
                                                  An example may include: "The
                                                  accreditation boundary is limited to the
                                                  FDsys Major Application which includes
                                                  firewalls, switches, workstations, printers,
                                                  web servers, file servers, and other devices
                                                  connected to the network as identified in
                                                  the hardware equipment list in Appendix


                                              Recommend moving the system
                                              diagram in section 5.1 and placing it
                                              into the accreditation boundary
                                              section. This will be useful when
                                              explaining the accreditation boundary
                                              and should be easier for the reader to
                                              follow. The boundary should match
                                              both the diagram and the hardware list.
                                              There are a couple of firewalls
                                              depicted in the diagram and if they are
                                              in the accreditation boundary then
                                              explain and if not, also need to explain
                                              that they are part of another system
                                              and whether that system has a current
                                              Approval To Operate.
                  1.6.4 (System               Internal interfaces have been listed as
                  Interconnection~Infonnation the Integrated Library System (ILS)
                  Sharing)                    and the Enterprise Service Bus (ESB).
                                              The section states that these are
                                              components of the FDsys. It is unclear
                                              if these components are part of the
                                              FDsys accreditation boundary, or
                                              covered under a separate System
                                              Security Plan (SSP).

                                              1   The external interfaces need to be
                                                  explained in more detail.
                                                         How do these external
                                                         interfaces communicate with
                                                         the system and why?
                                                         If they are another separate
                                                                         Appendix A

Document Reviewed: GPO FDsys System Security Plan (dated 12 September 2008)
Date of Review Comments: 27 October 2008




                                                      system, is there a
                                                     Memorandum of Agreement
                                                                          -          or
                                                      similar in place?
                                                     Are the other system currently
                                                     accredited
                 Management, Operational     These sections are currently difficult ti
                 and Technical Controls      assess if all base-line controls have
                                            been included at the correct high -
                                            watermark. Recommend that each sub
                                             section has the NIST SP 800-53
                                             control number listed and the control
                                            name. This will make it easier for the
                                             certifier and also make it easier for the
                                             author to ensure that no controls are
                                            missed. An example would be: 2.1
                                            Risk Assessment (RA)
                                            2.1.1 Risk Assessment Policy and
                                            Procedures (RA-1)
                 2.1 (Risk Assessment and   This section should cover security
                 Risk Management)           controls RA-1 thru RA-5(1)(2). The
                                            description references GPO directive
                                            825.33A, but does not state if an actual
                                            risk assessment has been performed at
                                            this stage. There are some general risk
                                            descriptions and threat descriptions,
                                            but there are no risk levels (high,
                                            medium, low), or likelihood associated
                                            with them. Recommend utilizing the
                                            NIST SP 800-30 to assist with this
                                            section.
                 2.1 (Risk Assessment and   Security control RA-5(Vulnerability
                 Risk Management)           Scanning) has not been answered in
                                            the SSP. As this is a high system,
                                            control enhancements RA-5(1) and
                                            RA-5(2) also need to be addressed.
                 2.3 thru 2.4.5             These sections are discussing the
                                            security controls for Planning (PL).
                                            There are some controls missing that
                                            should either be in place, or intended
                                            to be in place for this system. There is
                                     very generic and needs to include
                                     detail as to how the system will meet
                                     these controls. Some details to include
                                     are:
                                              What is the frequency of the
                                              security assessments and when
                                             is the first one scheduled?
                                             What are the risk
                                              considerations from external
                                              connections?
                                             Has an independent certifier
                                             been identified for the system?
                                             Has a Plan of Action and
                                             Milestones (POA&M)
                                              document been created yet?
                                             There could already be open
                                             items discovered from the risk
                                              assessment.
                                             Has the Authorizing Official
                                             been identified?
                                             How will continuous
                                             monitoring be put in place for
                                             this system and what activities
                                              are planned to be included?
13   NIA   2 (Management controls)   The System and Services Acquisition
                                     (SA) controls have not been included
                                     within this section.
14   25    3.1 (Personnel Security   The following controls are missing
           Controls)                 detail in this section:
                                             Personnel Security Policy and
                                             Procedures (PS-1). Is there a
                                             current GPO policy that covers
                                             this control?
                                             Position Categorization (PS-2).
                                                                Appendix A




                                            categorization and if so what

                                              Third-Party Personnel Security
                                              (PS-7). Need to discuss how
                                             the agency meets this control.
15   26   3.2 (Physical and          This section needs to include more
          Environmental Protection   detail regarding PE- 1 thru PE-19
          Controls)                  security controls. Items to be
                                     addressed include:
                                             Physical access to the system.
                                             Where islwill the system be
                                             located, is it in a server room,
                                             air conditioned etc?
                                             How is the facility monitored.
                                             Are there cameras, alarms,
                                             armed guards?
                                             Are there real-time intrusion
                                             alarms (PE-6(1) and PE-6(2))?
                                             Are visitor access records
                                             maintained and do they meet
                                             the requirements of security
                                             control PE-8, PE-8(1), and PE-
                                             8(2)?
                                             How does the organization
                                             protect power
                                             equipmentlcabling from
                                             damage or destruction?
                                             Discuss emergency shutoff for
                                             the system
                                             Discuss emergency power for
                                             both short term
                                             (unintermptible) and long term
                                             alternate power supply
                                             Discuss emergency lighting
                                             Discuss fire protection,
                                             including automatic detection
                                             and notification, and fire
                                             suppression devices
Appendix A




                                                humidity controls for the

                                                 How does the system protect
                                                 against water damage?
                                                 Discuss how delivery and
                                                 removal of IT equipment is
                                                 achieved
                                                 Is there an alternate work site?
                                                 Explain information leakage
                                                 protection
16      27     3.3 (Production Input 1   This section appears to be relating to
               Output Controls)          Media protection (MP) controls. There
                                         needs to be greater detail explaining
                                         the GPO media protection
                                         policy/procedures, access, labeling,
                                         storage, transportation, and finally
                                         sanitization and disposal.
17      27     3.4 (Incident Response    It is OK to reference the GPO
               Capability)               Computer Security incident Response
                                         Team (CSIRT) procedure document in
                                         this section, but it is strongly advised
                                         the Information Assurance Officer
                                         (LAO) for FDsys ensures that the
                                         document and GPO CSIRT procedures
                                         meet all the controls relating to IR-1
                                         thru IR-7, paying particular attention
                                         to the enhancement requirements.
18      28-29 3.7 (Security Awareness    This section provides a good overview
              and Training)              of user awareness training, but does
                                         not have any information to support
                                         the following controls under
                                         Awareness and Training (AT):
                                                 Security Training (AT-3). Need
                                                 to discuss how security staff
                                                 are identified and receive
                                                 specialized training (NIST SP
                                                 800-50)
                                                 Security Training Records
                                                                            Appendix A


Document Reviewed: GPO FDsys System Security Plan (dated 12 September 2008)
Date of Review Comments: 27 October 2008
Conductec by: Ma .k LoGalbo

   Item               ParaISection #         I                Comments
     #      #
                                                         (AT-4). Need to discuss how
                                             1           training records are kept and
                                             1           how you monitor users training
                                                         needslrequirements
                 3 (Operational Controls)        There are no Configuration
                                                 Management ( ~ ~ j c o n t r olisted
                                                                                 l s in
                                                 this section. The following need to be
                                                 addressed as either in-place, planned,
                                                 or inherited:
                                                         Configuration Management
                                                         Policy and Procedures (CM- 1)
                                                         Baseline Configuration (CM-2)
                                                         (1) (2)
                                                         Configuration Change Control
                                                         0 4 - 3 1 (1)
                                                         Monitoring Configuration
                                                         Changes (CM-4)
                                                         Access Restriction for Change
                                                         (CM-5) (1)
                                                         Configuration Settings (CM-6)
                                                         (1)
                                                         Least Functionality (CM-7) (1)
                                                         Information System
                                                         Component Inventory (CM-8)
                                                          (1) (2)
                  3 (Operational Controls)       There are no Contingency Planning
                                                 (CP) controls listed in this section. The
                                                 following need to be addressed as
                                                 either in-place, planned, or inherited:
                                                          Contingency Planning Policy
                                                          and Procedures (CP-1)
                                                          Contingency Plan (CP-2) (1)
                                                          (2)
                                                          Contingency Training (CP-3)
                                                          (1)
                                                          Contingency Plan Testing and
                                                          Exercises (CP-4) (1) (2)
                                                          Contingency,PlanUpdate (CP-
Appendix A




                                                 Telecommunications Services
                                                 (CP-8) (1) (2) (3) (4)
                                                 Information System Backup
                                                 0 - 9 ) (1) (2) (3) (4)
                                                 Information System Recovery
                                                 and Reconstitution (CP-10) (1)
21      NIA   3 (Operational Controls)   There are no Maintenance (MA)
                                         controls listed in this section. The
                                         following need to be addressed as
                                         either in-place, planned, or inherited:
                                                 System Maintenance Policy
                                                 and Procedures (MA-1)
                                                 Controlled Maintenance (MA-
                                                 2) (1) (2)
                                                 Maintenance Tools (MA-3) (1)
                                                 (2) (3)
                                                 Remote Maintenance (MA-4)
                                                 (1) (2) (3)
                                                 Maintenance Personnel (MA-5)
                                                 Timely Maintenance (MA-6)
22      NIA   3 (Operational Controls)   There are no System and Information
                                         Integrity (SI) controls listed in this
                                         section. The following need to be
                                         addressed as either in-place, planned,
                                         or inherited:
                                                 System and Information
                                                 Integrity Policy and Procedures
                                                 (SI-1)
                                                 Flaw Remediation (SI-2) (1)
                                                 (2)
                                                 Malicious Code (SI-3) (1) (2)
                                                 Information System
                                                 Monitoring Tools and
                                                 Techniques (SI-4) (2) (4) (5)
                                                 Security Alerts and Advisories
                                                                  Appendix A




                                                Security Functionality
                                                Verification (SI-6)
                                                Software and Information
                                                Integrity (SI-7) (1) (2)
                                                Spam Protection (SI-8) (1)
                                                Information Input restrictions
                                                (SI-9)
                                                Information Accuracy,
                                                Completeness, Validity, and
                                                Authenticity (SI-10)
                                                Error Handling (SI-11)
                                                Information Output Handling
                                                and Retention (SI-12)
23   29     4.1.1 (Inactive User IDS)   The paragraph states that inactive user
                                        accounts are disabled after a specific
                                        time (e.g., six or twelve months) in
                                        accordance with GPO Directive
                                        825.33A. There needs to be specifics
                                        and not examples. The 825.33A does
                                        not currently specify a inactive time
                                        &me.
24   29     4.1.2 (Authentication)      As FDsys is a high system, there is a
                                        need for multi factor identification to
                                        meet the IA-2 control enhancements 2
                                        and 3. This needs to be at the level 4
                                        when consulting the NIST SP 800-63.
                                        This section discusses internal users,
                                        but what about public credentials?
                                        Will the system have digital
                                        certificates and/or session based
                                        cookies etc?
25   29-32 4 (Technical Controls)       There is a large portion of the Access
                                        Controls (AC) deficient. Most of the
                                        lower AC controls (AC- 1 thru AC-7)
                                        have been addressed, but the
                                        remaining controls (AC-8 thru AC-20)
                                        need to be documented. Particular
                                        attention needs to be made to the
Appendix A

Document Reviewed: GPO FDsys System Security Plan (dated 12 September 2008)
Date of Review Comments: 27 October 2008
Conducted bv: Mark LoGalbo


      #   l#l
     Item Page        ParaISection #                      Comments

                                            control enhancements as this is a high
                                            svstem.
26        32     4.7 (Audit Trails)         This section is inadequate to answer
                                            the Audit and Accountability (AU)
                                            controls. Items that need to be
                                            addressed include:
                                                    Is there a GPO policy that
                                                    addresses Audit Trails
                                                    (825.33A)?
                                                    What are auditable events for
                                                    FDsys?
                                                    How often are these auditable
                                                    events reviewed?
                                                    Are sufficient audit records
                                                    kept that can capture sufficient
                                                    information to establish what
                                                    events occurred?
                                                    Are the audit records centrally
                                                   managed. ..CCIRT?
                                                    Is there sufficient audit storage
                                                    allocated for FDsys?
                                                   Does FDsys alert appropriate
                                                    staff in the event of an audit
                                                   processing failure and is it a
                                                   real time alert (needed for a
                                                   high system)?
                                                   How often does the
                                                   organization review and
                                                    analyze the audit logs?
                                                   Does FDsys provide audit
                                                   reduction and report generation
                                                   tools that support after-the-fact
                                                   investigations of security
                                                   incidents without altering-
                                                   original audit records?
                                            The technical controls for System and
                                            Communications Protection (SC) are
                                            missing from this section. Need to
                                            discuss the current, or planned security
                                                                             Appendix A

Document Reviewed: GPO FDsys System Security Plan (dated 12 September 2008)
Date of Review Comments: 27 October 2008
Conducted bv: Mark LoGalbo

    Item Page         ParaISection #                          Comments
     #      #
                                                controls for SC-1 thru SC-23,
                                                including all required enhancements
                                                for a high system.
          33     5.1 (Appendix A -              The network diagram shows two
                 Equipment List)            I   firewalls, four Cisco switches, and two
                                                load balancers that are not accounted
                                                for on the hardware list. There is also a
                                                Digital Application Server, a SAN,
                                                and a NAS storage unit that is listed on
                                                the hardware list, but not on the




1        1 18   1 2.2 (Review of Security   I Change reference from NIST !
         1      I Controls)                 I 53A, to NIST SP 800-53. Also
         I      I                           ( recommend that this section is
                                                removed and placed as an opening
                                                statement for the main section 2. It
                                                makes a good opening remark, but
                                                does not really fit in its current section.
                 2.3 thru 2.4.5                 These sections are discussing the
                                                security controls for Planning (PL).
                                                Recommend reordering the sections so
                                                they line up with the controls as
                                                follows:
                                                2.3 Planning (PL)
                                                2.3.1 Security Planning Policy and
                                                Procedures (PL-1)
                                                2.3.2 System Security Plan (PL-2)
                                                2.3.3 System Security Plan Update
                                                (PL-3)
                                                2.3.4 Rules of Behavior (PL-4)
                                                2.3.5 Privacy Impact Assessment (PL-
                                                5)
                                                2.3.6 Security-Related Activity
                                                Planning (PL-6)

                                                Recommend using this format for each
                                                control grouplfamily.
Appendix A




             or no longer used as follows:
                     SP 800-53 is now Revision 2,
                     December 2007
                     SP 800-53A is no longer draft
                     and is June 2008
                     SP 800-61 is now Revision 1,
                     March 2008
                     SP 800-64 is now Revision 2,
                     October 2008
                     SP 800-92 is no longer draft
                     and is September 2006
                     NISTPub~.31,73,83,and102
                     are no longer used
           Appendix B. Management's Response




                             IT&S Response:
                Draft OIG IV&V Assessment Report on FDsys

                                 December 10,2008



Introduction

The Office of the Inspector General (OIG) issued a Draft Report on November 25,2008,
concerning an Independent Verification and Validation (IV&V) of the FDsys System
Security Plan (SSP).

This document is the GPO Information Technology and Systems (IT&S) response to the
OIG recommendations contained in that Draft Assessment Report.


OIG Recommendations and IT&S Response

The OIG IV&V recommendations and IT&S responses to each recommendation are
listed below.

OIG Recommendation #I:

The IV&V recommends that the GPO FDsys PMO follows the NIST SP 800-37 for a
successful process in which to ensure the system receives an ATO. The C&A process is a
team process and clear responsibilities need to be documented.

IT&S Response:

IT&S agrees that SP 800-37 provides a reasonable framework for a C&A process that
complies with GPO IT Security Policy requirements and GPO policy, and further, that
the C&A process is a team oriented process. The C&A process, when it is performed for
the FDsys system, will use a team oriented approach, and the roles and responsibilities of
the parties will be documented.

OIG Recommendation #2:

The IV&V recommends that although the majority of the functional description in the
original GPO FDsys SSP has been removed, there still needs to be a clearer, more
detailed version of the system description, users, information flow, dependencies,
security requirements and security features.

IT&S Response:
IT&S agrees to enhance the document to address these recommendations.


OZG Recommendation #3:

The IV&V recommends that the NIST SP 800-53 should be used extensively as a guide
to establish the required baseline security controls GPO FDsys will need to incorporate,
or accept the risk. The document should list each control number and title and then a
response as to how the control is implemented, or planned to be implemented should
follow.

IT&S Response:

The FDsys SSP already lists all HIGH NIST 800-53A security controls as required for
the control baseline (this is contained in Appendix A of the SSP). Thus that element of
the recommendation is already adequately covered in the FDsys SSP. The GPO R ~ s k
Assessment template, which complies with NIST SP 800-26, will provide the
recommended information, in accordance with the GPO IT Security Policy (GPO
Directive 825.33A) and GPO SDW, and is the GPO document that will list the
recommended state of control implementation or risk acceptance. The Risk Assessment
for FDsys is in the process of creation now and is planned for completion in December
2008, to meet the requirements of the GPO C&A process.

OZG Recommendation M:

The IV&V recommends that any connections to systems outside of FDsys need to be
thoroughly documented. For any connections that are made to other systems U G P O ,
there should be a Memorandum of UnderstandingIAgreement.For any connections to
systems outside of GPO, there should be an Interconnection Security Agreement (ISA).

IT&SResponse:

The GPO IT Security Policy (GPO Directive 825.33A) does not require MOUIMOA's
between GPO systems or major applications. IT&S believes this extra level of
documentation may be worthwhile and will plan to do for the GSS and major applications
that FDsys interfaces to within GPO. IT&S agrees that ISA's should be performed for
external system interfaces, outside of GPO, and will complete ISA's for this purpose. The
ILS is the only system interface of that type for FDsys at this time. IT&S plans to
complete these activities in December 2008, to support the C&A process for FDsys.

OZG Recommendation #5:

The IV&V recommends that the SSP be updated to respond to the detailed comments
provided in the Attachment to the Assessment report.

ZT&S Response:
                 Appendix C. Status of Recommendations


Recommendation No.           Resolved   Unresolved   OpenIECD*    Closed
         1                       X                      TBD
         2                       X                      TBD
         3                       X                     12/31/08
         4                       X                     12/31/08
         5                       X                     12/31/08

"Estimated Completion Date
                      Appendix D. Report Distribution


Public Printer
Chief of Staff
General Counsel
Chief Acquisition Officer
Chief Management Officer
Chief Technology Officer
